W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-344

Quest International Monitor Service, Inc.
(Petitioner)

Rockwell Collins, Inc.
(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

/s/ Todd C. Jacobs
9/14/21

(Type or print) Name

Todd C. Jacobs
Mr.

Firm

Bradley & Riley PC

Address

2007 First Ave. SE

City & State

Cedar Rapids, Iowa

Phone

319-363-0101

Ms.

Mrs.

Miss

Zip 52402
Email

tjacobs@bradleyriley.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Mohammed Kent Ghods - mghods@lexopusfirm.com
Lex Opus
2100 N. Broadway, Suite 210
Santa Ana, CA 92706

